                     UNITED STATES RAILROAD RETIREMENT BOARD

                                 OFFICE OF INSPECTOR GENERAL



                       Fiscal Year 2001 Financial Statement Audit

                                 Letter to Management

                           Report No. 02-07, February 8, 2002



To the Board Members:

We have audited the accompanying consolidated balance sheet of the Railroad
Retirement Board (RRB) for the fiscal years ended September 30, 2001 and 2000, and the
related: consolidated statements of net cost, changes in net position, budgetary resources,
financing and custodial activity (hereinafter referred to as the “principal financial
statements”) for the years then ended and have issued our report thereon dated February
8, 2002. We conducted our audit in accordance with: generally accepted auditing
standards; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and, Office of
Management and Budget (OMB) Bulletin No. 01-02, "Audit Requirements for Federal
Financial Statements."

In planning and performing this audit we considered internal control in order to determine
our auditing procedures for the purpose of issuing our report on the RRB’s principal
financial statements and not to provide assurance on internal control. The maintenance of
adequate internal control designed to fulfill the RRB’s control objectives is the responsibility
of management. Because of inherent limitations in any system of internal control, errors or
irregularities may nevertheless occur and not be detected. Also, controls found to be
functioning at a point in time may later be found deficient because of the performance of
those responsible for applying them. There can be no assurance that controls currently in
existence will prove to be adequate in the future as changes take place in the organization.

During our audit of the RRB’s principal financial statements, we noted certain matters
involving internal control and its operations that we consider to be reportable conditions
under standards established by OMB Bulletin 01-02. Reportable conditions are matters
coming to our attention that, in our judgment, relate to significant deficiencies in the design
or operation of internal control and could adversely affect the RRB’s ability to record,
process, summarize, and report financial data consistent with the assertions of
management in the financial statements. Our consideration of internal control would not
necessarily disclose all matters in internal control that might be reportable conditions.




844 N RUSH STREET CHICAGO IL 60611-2092   Printed on recycled paper with soy ink
Letter to Management                                                            Page 2


A material weakness is a reportable condition in which the design or operation of internal
control does not reduce to a relatively low level the risk that errors or irregularities in
amounts that would be material to the RRB’s financial statements may occur and not be
detected within a timely period by employees in the normal course of performing their
assigned functions.

In our report on internal control, dated February 8, 2002, we reported material weaknesses
in the RRB’s overall control environment and system of information security, and a
reportable condition related to debt recovery accounting. During our audit, we also noted
other matters involving the RRB’s internal control structure and its operation. The details of
our findings concerning internal control are presented in the attached summary
memorandum. However, neither this letter, nor the attached memorandum, modifies our
report on the financial statements dated February 8, 2002, referred to in the first paragraph
of this letter.

Our work was not conducted for the primary purpose of making detailed recommendations
about the RRB’s system of internal control. Had we done so, other matters might have
come to our attention that we would have reported to you.

This report is intended solely for the information and use of the management of the RRB,
OMB, and Congress, and is not intended to be and should not be used by anyone other
than these specified parties.

We wish to express our appreciation for the many courtesies and cooperation extended to
us during the audit.


                                                  Very truly yours,




                                                  Martin J. Dickman
                                                  Inspector General

                                                  February 8, 2002
Letter to Management                                                         Page 3
                                                                                  Attachment
                        MEMORANDUM ON INTERNAL CONTROL


MATERIAL WEAKNESSES

Overall Control Environment

The RRB’s overall control environment is not adequate to ensure that agency financial
statements will be free of material misstatements and prepared in accordance with
applicable guidance. As a result, each financial statement audit since FY 1993 has cited
the agency for a material weakness in this area.

We believe that the RRB’s present administrative structure is the primary cause of this
internal control weakness. Management in the agency’s various operating components
does not seek assistance across organizational lines to resolve problems related to
financial accounting and reporting when they arise. As in prior audits, we continue to
observe that the RRB’s internal control environment is focused on control objectives and
techniques designed to meet the organizational responsibilities of each of the individual
operating units, rather than the overall objectives of the RRB. As a result, the agency has
experienced difficulties in resolving financial accounting and reporting issues that require
cross-organizational cooperation.

Agency management believes that previous reorganizations and the amplified role of the
executive committee have eliminated the material weakness. The RRB did not include our
finding concerning the overall control environment as a material weakness in the
statements of assurance that were issued pursuant to the Federal Managers’ Financial
Integrity Act, for FYs 1997, 1998, 1999, 2000 or 2001.

The OIG believes the overall control environment continues to be a material weakness.
The conditions that led to the original finding continue to exist and have an adverse effect
on the agency’s ability to meet its internal control objectives related to financial statement
reporting. Although the RRB has implemented changes to the agency’s organizational
structure, we have not observed a related change in the agency’s organizational culture.

Information Security

During FY 2001, the OIG conducted a review of information security at the RRB pursuant to
the requirements of the Government Information Security Reform Act. Our review
disclosed weaknesses in most areas of the RRB’s information security program.
Significant deficiencies in program management and access controls make the agency’s
information security program a source of material weakness in internal control over
financial reporting.

Access controls cannot be considered fully effective due primarily to inadequacies in
password management. Our review identified numerous password management
weaknesses in the mainframe, local area and wide area computing environments. The
RRB’s most notable problem is the agency’s inability to police and enforce its recently
Letter to Management                                                      Page 4
Memorandum On Internal Control                                            Attachment

adopted policy requiring the use of more complex password configurations. Other
weaknesses observed during this review included: passwords that never expire, inactive,
duplicate accounts, separated employees and former contractors whose information
system privileges had not been revoked.

The overall effectiveness of the RRB’s information security program has been undermined
by a lack of training among key personnel. Employees with decision-making responsibility
for information security have not had adequate formal training in its theory, principles and
practice. In addition, the information security program lacks a strong security framework
with a central management focal point. These two deficiencies are the underlying cause of
many other control problems identified during the audit.

Our report also cites the agency for:

   •   weaknesses in the security planning and evaluation process;
   •	 inadequacies in the design of controls intended to restrict individual privileges to the
      minimum required by their employment; and
   •   a lack of documentation for some security-related activities.

The OIG reported its assessment to agency management in the form of an executive
summary dated September 5, 2001. The OIG’s detailed findings were published in final
form in OIG Audit Report Number 02-04 dated February 2, 2002. In that report, we made
specific recommendations for corrective action to strengthen controls in the areas of
weakness identified by the audit. In their response, the Bureau of Information Services
concurred with most of the OIG’s recommendations, and stated that many had already
been implemented. However, the agency is still developing target dates for remedial
action in some critical areas.
Letter to Management                                                     Page 5
Memorandum On Internal Control                                           Attachment

REPORTABLE CONDITION

Accounting for Benefit Overpayment Recoveries

During FY 2000, the OIG identified weaknesses in internal control over debt recovery
transactions that adversely impact the ability of the agency to ensure the reliability of
financial reporting and the safeguarding of accounts receivable. We identified errors in the
recording of debt recovery transactions that included:

   •   returned benefit payments that had not been credited to debtor accounts;
   •	 benefit payments that had been erroneously credited to debtor accounts as
      recoveries;
   •   delayed recording of certain RUIA debt recoveries; and

An examination of these errors identified weaknesses in the related internal controls. The
present internal control structure, as it relates to debt recovery accounting, does not:

   •	 consistently provide for the establishment, review and reconciliation of general
      ledger controlling accounts for benefit payment activity;
   •   include review of all systems output; and
   •   prevent or detect certain unauthorized and/or unsupported transactions.

In addition, the present internal control environment does not provide management with
sufficient information concerning the number and value of non-conforming transactions to
provide the basis for an evaluation of potential financial impact.

These weaknesses in internal control were brought to management’s attention in the Office
of Inspector General’s audit report, #00-16, dated September 29, 2000. Agency
management has implemented some of the OIG’s recommendations for corrective action.
However, they have not taken the recommended action in several key areas, including the
implementation of controlling accounts for benefit payments, citing the inability of existing
benefit payment sub-systems to support a cost-effective control and reconciliation process.
Letter to Management                                                    Page 6
Memorandum On Internal Control                                          Attachment

OTHER MATTERS INVOLVING INTERNAL CONTROL

Problem Resolution Reporting

Logs used to track user reports of mainframe computer problems do not provide
management in the Bureau of Information Services (BIS) with an adequate basis for
assessing the status or timeliness of problem resolution.

BIS maintains logs that record problems with the RRB’s mainframe system as reported by
users throughout the agency. Those logs record the problem reported, the date of the
report and whether or not the problem has been resolved. However, the log does not
identify when the problem was resolved and, as a result, does not provide a basis for
assessing the timeliness of problem resolution. In addition, detailed records that support
problem resolution are not always consistent with the status reported in the summary log.

We recommend that BIS modify the problem logs to include the date that each reported
mainframe computer problem is resolved and develop controls to ensure the consistency
of summary and detail records that support the problem resolution process. (Report
Recommendation #00-4)

Payroll Adjustments

Retroactive payroll adjustments are submitted to BFO on form G-56a. BFO personnel
enter the indicated corrections into the Tesseract system, the mainframe application that
supports payroll processing. The data entered is not reviewed for accuracy and, as a
result, errors may occur and not be detected in time to prevent payment errors.

We recommend that BFO develop a control to ensure the accuracy of retroactive payroll
adjustments. (Report Recommendation #01-1)

Cost of Living Increase for Grade/Pay Retention Employees

The salaries of certain employees are not mechanically updated for annual cost-of-living
increases. These employees have retained a salary commensurate with a higher-paid,
previously occupied position than the one they presently hold.

Updated salaries for these employees are manually calculated and entered into the
Tesseract system, the mainframe application that supports payroll processing. The data
entered is not reviewed for accuracy and, as a result, errors may occur and not be detected
in time to prevent payment errors.

We recommend that the Bureau of Human Resources develop a control to ensure the
accuracy of manual updates to the Tesseract system. (Report Recommendation #01-2)
Letter to Management                                                Page 7
                                                                  Attachment

         STATUS OF PRIOR AND CURRENT YEAR RECOMMENDATIONS



We have reviewed the implementation of recommendations resulting from prior audits of
the RRB’s financial statements. The table below presents a summary of the status of
recommendations pending when we issued our “Letter to Management” dated February 8,
2002, in connection with our audit of the RRB’s FY 2001 financial statements. The
additional recommendations resulting from our audit of the agency’s FY 2001 financial
statements are also included.


                                             #     Implemented       In      Declined
                                                                  Progress

BUREAU OF FISCAL OPERATIONS

    Payroll Adjustments                   01-1                       X

BUREAU OF HUMAN RESOURCES

    Cost of Living Adjustments            01-2                       X

 BUREAU OF INFORMATION SERVICES

     Project Management reporting         00-2           X

     Systems Development Lifecycle        00-3           X


    Problem Resolution Reporting          00-4                       X
